HHS/OIG, Audit -"Review of Undistributable Child Support Collections in Wisconsin
From October 1, 1998, Through September 30, 2005,"(A-05-06-00018)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Undistributable Child Support Collections
in Wisconsin From October 1, 1998, Through September 30, 2005," (A-05-06-00018)
May 24, 2006
Complete
Text of Report is available in PDF format (272 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the Wisconsin Department of Workforce Development
(State agency) appropriately reported program income for undistributable child support collections
and interest earned on program funds.  For the quarters ended December 1998 through
September 2005, the State agency did not recognize and report program income of $162,701
($107,383 Federal share) for undistributable collections.  The State agency properly
reported interest earned on program funds as program income.  We recommended that the
State agency make the appropriate program income adjustments for undistributable collections,
require the Milwaukee agency to transfer unclaimed collections to the treasurer's office
and implement adequate policies and procedures to ensure future undistributable collections
are recognized as program income on Federal financial reports.  The State agency agreed
with the audit recommendations.